Department of Health and Human Services
                    OFFICE OF 

               INSPECTOR GENERAL 




   MEDICARE COMPLIANCE 

REVIEW OF HOSPITAL ESPANOL 

      AUXILIO MUTUO 

   DE PUERTO RICO, INC., 

    FOR CALENDAR YEARS 

       2010 AND 2011 



 Inquiries about this rep ort may be addressed to the Office of P ub lic Affairs a t 

                           Puhlic.Affairs@oig.hlrs.gol-'. 





                                                     James P. Edert 

                                                Regional Inspector General 


                                                          June 2013 

                                                        A-02-12-01026 

                         Office ofInspector General
                                         https: I I oig.hhs.gov I



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Hum&n Services (HHS) programs, as well as th e
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office ofAudit Services

The Office o f Audit Serv ices (OAS) provides auditing services for HHS , either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits exam ine the performance of
HHS programs and/or its gran tees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Offu:e ofEvaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information o n significant issues. These evalu ations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office ofInvestigations
The Office of In vestigations (0[) conducts criminal, civi l, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal , State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG's internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care indu stry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices 



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.qov

 Section 8L of the Inspector General Act, 5 U.S. C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable , a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY 


BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program.

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary's stay is assigned and the severity level of the patient's diagnosis. The DRG
payment is, with certain exceptions, intended to be payment in full to the hospital for all inpatient
costs associated with the beneficiary's stay.

CMS implemented an outpatient prospective payment system (OPPS) for the Hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHI.P (State Children's Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. Under the OPPS, Medicare pays for hospital outpatient services
on a rate-per-service basis that varies according to the assigned ambulatory payment
classification.

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
hospital claims that are at risk for noncompliance with Medicare billing requirements. OIG
identified these types of hospital claims using computer matching, data mining, and analysis of
claims. This review is part of a series of OIG reviews of Medicare payments to hospitals for
selected claims for inpatient and outpatient services.

Hospital Espafiol Auxilio Mutuo de Puerto Rico, Inc., (the Hospital) i~ a 653-bed acute care
nonprofit hospital located in San Juan, Puerto Rico. Medicare paid the Hospital approximately
$49 million for 7,072 inpatient and 74,203 outpatient claims for services provided to
beneficiaries during calendar years 2010 and 2011 (audit period) based on CMS's National
Claims History data.

Our audit covered $3,467,641 in Medicare payments to the Hospital for 899 claims that we
judgmentally selected as potentially at risk for billing errors. These 899 claims had dates of
service in our audit period and consisted of 344 inpatient and 555 outpatient claims.

OBJECTIVE

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.




                                                 1
SUMMARY OF FINDINGS 


The Hospital complied with Medicare billing require ments for 745 of the 899 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 154 claims, resulting in overpayments of $43,046 for our
audit period. Specifically, 3 inpatient claims had billing errors, resulting in overpayments of
$9,589, and 151 outpatient claims had billing errors, resulting in overpayments of $33,457.
These overpayments occurred primarily because the Hospital did not have adequate controls to
prevent incorrect billing of Medicare claims and did not fully understand the Medicare billing
requirements within the selected risk areas that contained errors.

RECOMMENDATIONS

We recommend that the Hospital:

         • 	 refund to the Medicare contractor $43,046, consisting of $9,589 in overpayments
             for 3 incorrectly billed inpatient claims and $33,457 in overpayments for 151
             incorrectly billed outpatient claims, and

         • 	 strengthen controls to ensure fu ll compliance with Medicare requirements.

HOSPITAL ESPANOL AUXILIO MUTUO DE PUERTO RICO COMMENTS

In its written comments on our draft report, the Hospital concurred with our findings and
recommendations and described corrective actions it had taken or planned to take to address
them.




                                               lt
                                                   TABLE OF CONTENTS 




INTRODUCTION................................................ ................................................................ l 


     BACKGROUND ....... ........................ .............................................................................. 1 

        Hospital Inpatient Prospective Payment System .................................................... 1 

        Hospital Outpatient Prospective Payment System ...... ......... ........... ............. ........... I 

        Hospital Claims at Risk for Incorrect Billing ......................................................... ! 

        Medicare Requirements for Hospital Claims and Payments ..................................2 

        Hospital Espafiol Aux.ilio Mutuo de puerto Rico ...................................................2 


    OBJECTIVE, SCOP:E, AND METHODOLOGY ................... ......................... ............... 2 

        Objective ................................................................................... .................. ............ 2 

        Scope.......................................................................................................................3 

        Methodology ...................... ..................... ............................... ................... .............. 3 


FINbiNGS AND RECOMMENDATIONS ........................ ..............................................4 


    BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS ............................. .4 

        Incorrectly Billed as lnpatient. ................................................................................4 


    BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS ..........................5 

        Incorrect Number ofUnits ......................................................................................5 

        Incorr~tly Billed Procedures With Modifier -59 ...................................................5 

        Incorrectly Billed Evaluation and Management Services .......................................5 


    RECOMMENDATIONS ....... ...................................... ...... ........ ... .............. ......... ............6 


    HOSPITAL ESPANOL AUXILIO MUTUO DE PUERTO RICO COMMENTS .........6 


APPENDIXES

    A: RESULTS OF REVIEW BY RISK AREA

    B: HOSPITAL ESPANOL AUXILIO MUTUO DE PUERTO RICO COMMENTS




                                                                     iii
                                                INTRODUCTION 


BACKGROUND
Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. Medicare Part A provides inpatient hospital insurance
benefits and coverage of e xtended care services for patients after hospital discharge. Medicare
Part B provides supplementary medical insurance for medical and other health services,
including coverage of hospital outpatient services.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals.

Hospital Inpatient Prospective Payment System

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS ) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary's stay is assigned and the severity level of the patient's diagnosis. The DRG
payment is, with certain exceptions, intended to be payment in full to the hospital for all inpatient
costs associated with the beneficiary's stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children's Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-1 13. 1 The OPPS is effective for services furnished on or after
August 1, 2000. Under the OPPS, Medicare pays for hospital outpatient services on a rate-per­
service basis that varies accordin g to the assigned ambulatory payment classification (APC).
CMS uses Healthcare Common Procedure Coding System (HCPCS) codes and descriptors to
identify and group the servi ces within each APC group. 2 All services and items within an APC
group are comparable clinically and require comparable resource$.

Hospital Claims at Risk for Incorrect Billing

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
hospital claims that are at risk for noncompliance with Medicare billing requirements. OIG
identified these types of hospital claims using computer matching, data minjng, and analysis
techniques. Examples of these types of claims at risk for noncompliance included the following:

1
    In 2009 SCHIP was fo rmally redesignated as the Children's Health In surance Program.
2
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services.
products, and supplies.

                                                          1

          •   inpatient claims paid in excess of charges,

          •   inpatient and outpatient manufacturer credits for replaced medical devices,

          •   outpatient claims billed with modifier -59,

          •   outpatient claims paid in excess of charges, and

          •   outpatient claims billed with evaluation and management (E&M) services.

For the purposes of this report, we refer to these areas at risk f01 incorrect billing as "risk areas."

This review is part of a series of OIG reviews of Medicare payments to hospitals for selected
claims for inpatient and outpatient services.

Medicare Requirements for Hospital Claims and Payments

Section 1862(a)(l)(A) of the Act states that Medicare payments may not be made for items or
services that "are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member." In addition,§ 1833(e) of the Act
precludes payment to any provider of services or other person without information necessary to
determine the amount due the provider.

Federal regulations (42 CFR § 424.5(a)(6)) state that the provider must furnish to the Medicare
contractor sufficient information to determine whether payment is due and the amount of the
payment.

The Medicare Claims Processing Manual (the Manual), Pub. No. 100-04, chapter 1, § 80.3.2.2,
requires providers to complete claims accurately so that Medicare contractors may process them
correctly and promptly. Chapter 23, § 20.3, of the Manual states that providers must use HCPCS
codes for most outpatient services.

Hospital Espafi.ol Auxilio Mutuo de Puerto Rico

Hospital Espafiol Auxilio Mutuo de Puerto Rico, Inc., (the Hospital) is a 653-bed acute care
nonprofit hospital located in San Juan, Puerto Rico. Medicare paid the Hospital approximately
$49 million for 7,072 inpatient and 74,203 outpatient claims for services provided to
beneficiaries during calendar years 2010 and 2011 (audit period) based on CMS 's National
Claims History data.

OBJECTIVE, SCOPE:, AND METHODOLOGY

Objective

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.

                                                   2

Scope

Our audit covered $3,467,641 in Medicare payments to the Hospital for 899 claims that we
judgmentally selected as potentially at risk for billing enors (see Appendix A). These 899 claims
had dates of service in our audit period and consisted of 344 inpatient and 555 outpatient claims.

We focused our review on the risk areas that we had identified as a result of prior OtG reviews at
other hospitals. We evaluated compliance with selected billing requirements, but did not use
medical review to determine whether the services were medically necessary.

We limited our review of the Hospital' s internal controls to those applicable to the inpatient and
outpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. We established reasonable assurance of
the authenticity and accuracy of the data obtained from the National Claims History file, but we
did not assess the completeness of the file.

This report focu ses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

We conducted our fieldwork at the Hospital from July through September 2012.

Methodology

To accomplish our objective, we:

   • 	 reviewed applicable Federal laws, regulations, and guidance;

   • 	 extracted the Hospital' s inpatient and outpatient paid claim data from CMS's National
       Claims History file for our audit period;

   • 	 obtained information on known credits for replaced cardiac medical devices from the
       device manufacturers for our audit period;

   • 	 used computer matching, data mining, and analysis techniques to identify claims 

       potentially at risk for noncompliance with selected Medicare billing requirements; 


   • 	 judgmentally selec ted 899 claims (344 inpatient and 555 outpatient) for detailed review ;

   • 	 reviewed available data from CMS's Common Working File for the selected claims to
       determine whether the claims had been cancelled or adjusted;

   • 	 requested that the Hospital conduct its own review of the selected claims to determine
       whether the services were billed correctly;

   • 	 reviewed the itemized bills and medical record documentation provided by the Hospital
       to support the selected claims;

                                                 3

    • 	 reviewed the Hospital's procedures for assigning HCPCS codes and submitting Medicare
        claims;

    • 	 discussed the incorrectly billed claims with Hospital personnel to determine the 

        underlying causes of noncompliance with Medicare requirements; 


    • 	 calculated the correct payments for those claims requiring adjustments; and

    • 	 discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the ev idence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                           FINDINGS AND RECOMMENDATIONS

The Hospital complied wi th Medicare billing requirements for 745 of the 899 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing require ments for the remaining 154 claims, resulting in overpayments of $43,046 for our
audit period. Specifically, 3 inpatient claims had billing errors, resulting in overpayments of
$9,589, and 151 outpatient claims had billing errors, resulting in overpayments of $33,457.
These overpayments occurred primarily because the Hospital did not have adequate controls to
prevent incorrect billing of Medicare claims and did not fully understand the Medicare billing
requirements within the selected risk areas that contai ned errors. For a detailed list of the risk
areas that we reviewed and associated billing errors, see Appendix A.

BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 3 of the 344 selected inpatient claims, which
resulted in overpayments of $9,589.

Incorrectly Billed as Inpatient

Section l862(a)(l )(A) of the Act states that Medicare payments may not be made for items or
services that "are not reasonabl e and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.''

For 3 of the 344 selected inpatient claims, the Hospital incorrectly billed Medicare Part A for
beneficiary stays that should have been billed as outpatient or outpatient with observation




                                                  4

services. The Hospital attributed the incorrect billing to human error. As a result of these errors,
the Hospital received overpayments of$9,589. 3

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 151 of the 555 selected outpatient claims, which
resulted in overpayments of $33,457.

    incorrect Number of Units

Section 1833(e) of the Act precludes payment to any provider of services or other person without
information necessary to determine the amount due the provider. The Manual, chapter 1,
§ 80.3.2.2, requires that claims be completed accurately to be processed correctly and promptly.
In addition, chapter 4, § 20.4, of the Manual defines service units as the number of times the
service or procedure being reported was performed.

For 2 of the 555 selected outpatient claims, the Hospital received Medicare payments for the
incorrect number of uni ts. Specifically, the Hospital billed Medicare for the wrong number of
units for one claim and the Medicare contractor revised the number of units after the Hospital
submitted the other claim. The Hospital attributed the incorrect billing to human error and
misinterpretation of Medicare guidelines. As a result of these errors, the Hospital received
overpayments of $7,432.

Incorrectly Billed Procedures With Modifier -59

The Manual, chapter 1, § 80.3.2.2, requires that claims be completed accurately to be processed
correctly and promptly. In addition, chapter 23, § 20.9. l .l(B), states that modifier -59 is used to
indicate a distinct procedural service, which may represent a different session or patient
encounter, different procedure or surgery, differe nt site or organ system, separate
incision/excision, or separate injury (or area of injury in extensive injuries).

For 139 of the 555 selected outpatient claims, the Hospital incorrectly billed Medicare for
HCPCS codes appe nded with modifier -59 that were incorrect for the services provided. The
Hospital attributed the incorrect billing to human error and misinterpretation of Medicare
guidelines. As a result of these errors, the Hospital received overpayments of $25,214.

Incorrectly Billed Evaluation and Management Services

The Manual, chapter 12, § 30.6 .6(B), states that a Medicare contractor pays for an E&M service
that is significant, separately identifiable, and above and beyond the usual pre- and post­
operative work of the procedure.

3
 The Hospital may be able to bill Medicare Part B for all services (except for services that specificall y require an
outpatient status) that would have been reasonable and necessary had the beneficiary been treated as a hospital
outpatient rather than admitted as an inpatient. We were unable to determine the effect that billing Medicare Part B
would have on the overpayment amount because these services had not been billed or adjudicated by the Medicare
administrative contractor prior to the issuance of our report.

                                                          5

 For 10 of the 555 selected outpatient claims, the Hospital incorrectly billed Medicare for
HCP CS codes appended with modifier -25 that were incorrect for the service~ provided. The
Hospital attributed the incorrect billing to human error and misinterpretation of Medicare
guidelines. As a result of these errors, the Hospital received overpayments of $8 11.

RECOMMENDATIONS

We recommend that the Hospital:

         • 	 refund to the Medicare contractor $43,046, consisting of $9,589 in overpayments
             for 3 incorrectly billed inpatient claims and $33,457 in overpayments for 15 1
             incorrectly billed outpatient claims, and

         • 	 strengthen controls to ensure full compliance with Medicare requirements.

HOSPITAL ESPANOL AUXILIO MUTUO DE PUERTO RICO COMMENTS

In its written comments on our draft report, the Hospital concurred with our find ings and
recommendations and described corrective actions it had taken or planned to take to address
them. The Hospital's comments are included in their entirety as Appendix B.




                                               6

APPENDIXES 

                      APPENDIX A: RESULTS OF REVIEW BY RISK AREA 



                                                                                           Claims
                                                                          Value of          With           Value of
                                                         Selected         Selected          Over­           Over­
                   Risk Area                             Claims            Claims         payments         payments
Inpatient

Claims Paid in Excess of Charges                            342          $2,485,908             3              $9,589
Manufacturer Credits for Replaced Medical
                                                              2                16,445           0                      0
Devices
 Inpatient Totals                                           344          $2,502,353             3              $9,589



Outpatient

Claims Billed With Modifier -59                             290            $514,945           139             $25,214

Claims Paid in Excess of Charges                            200              376,756            2                7,432
Claims Billed With Evaluation and
                                                             64               58,498           10                  811
Management Services
Manufacturer Credits for Replaced Medical
                                                              1                15,088           0                      0
Devices
 Outpatient Totals                                          555            $965,288           151             $33,457



 Inpatient and Outpatient Totals                            899          $3,467,641           154             $43,046

 Notice: The table above illustrates the results of our review by risk area. In it, we have organized inpatient and
 outpatient claims by the risk areas we reviewed. However, we have organized this report's fi ndings by the types of
 billing errors we found at the Hospital. Because we have organized the information differently, the information in
 the individual risk areas in this table does not match precisely with this report's findings.
       APPENDIX B: HOSPITAL ESPANOL AUXILIO MUTUO 

                DE PUERTO RICO COMMENTS 




  Auxilio Mutuo
  Aqul ~ r~lir,) s.1lud.


}\pril 29. 20) 3


Mr. James P. Eden
Regional Jnspec>tOr General for Audit Services
Office of Audit Servtces, Region II
Jacob K. Javits Federal Bwldtng
26 Federal Plaza, Room 3900
New York, NV 10278

RE: REPORT NUJIBER A-02-12-01026

Dear Mr. Edert:

According to your request on your Jett~r dated April 3, 20 13 we are
stating our Ctlncurr<!nc~ with the recoittmendatton for the report number
A-02- 12-01026

For the recommendation of refunding $43,046.00 u.e want to clartfy that
the biggest amount qave been already recouped by our Fiscal
lntermedial)< FCSO; due to our submitted requests for adjustment.

It is tmportant to mention that the issue of out pa.uent drums PaJd in
excess of charges ·was an error at the mtermedlary level the overpayment
stnce hospital subrottted the correc t amount of units and reported
tmmediately the amount paid m excess.

We a1so concur 'l.vitb the statement of strengthen controls to ensure full
compltan~ with Medicare require ments. A correction plan have been
taken con5 1stsng in the estabhshment of an internal pobcy which no
system edits override is allowed. Also a training and retraining program
was given La ooders. registration supervisors. clerks and b illing ~taif and
will be mandator} annually.

Sincerill)',




~
                 " 71 S Aw. Ponce de Ledn Pda. 37 ~. tlato Rey, Puerto Rico 0091 8
                 A.partado 191227. San juan PR 00919-1227 Tel (787) ?58-2000
